ER-B-00-03




         AUDIT
        REPORT



                                 WASTE CHARACTERIZATION AT
                                         OAK RIDGE




                                             JUNE 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                      DEPARTMENT OF ENERGY
                                         Washington, DC 20585

                                                 June 19, 2000

MEMORANDUM FOR THE MANAGER, OAK RIDGE OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager (Signed)
               Eastern Region Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Waste Characterization at Oak Ridge"

BACKGROUND

Waste characterization is a series of steps performed to determine the weight, volume, and physical
characteristics of radioactive waste. The Department of Energy (Department) uses data obtained
from waste characterization to evaluate treatment and disposal options for the waste. The
characterization process begins when the generator of the waste prepares a general description of the
waste produced. The extent of work performed for the final characterization is dependent on the
amount and quality of information provided by the generator and the proposed treatment or disposal
option for the waste.

In December 1997, the Department awarded a management and integration contract to Bechtel
Jacobs, LLC (Bechtel Jacobs) for managing the Department’s radioactive waste at Oak Ridge. As of
September 1999, about 84 percent of the mixed and low-level waste in the inventory reporting system
was generated before Bechtel Jacobs assumed responsibility for waste management. The objective of
this audit was to determine whether Bechtel Jacobs and its predecessor contractors at Oak Ridge
accurately characterized the Department’s waste.

RESULTS OF AUDIT

Bechtel Jacobs and its predecessor contractors at Oak Ridge did not accurately characterize the
Department’s waste. Specifically, the contractors misstated the weight, volume, and physical
descriptions of the waste in inventory. The errors occurred because the Department and its
contractors did not develop procedures for determining accurate weights, volumes, and physical
descriptions of containerized waste. As a result, the Department could not rely on waste
characterization data to make informed decisions regarding the amount of waste to be treated or
disposed. Also, the Department will incur about $480,000 in FY 2000 to visually inspect 6,500
containers of waste that were previously characterized at Oak Ridge.

MANAGEMENT REACTION

Management agreed with the audit finding and recommendation and initiated corrective actions.


Attachment
WASTE CHARACTERIZATION AT OAK RIDGE

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 2


               Inaccurate Characterizations

               Details of Finding.......................................................................4

               Recommendation and Comments .............................................7


               Appendix

               Scope and Methodology.............................................................8
OVERVIEW

INTRODUCTION AND   The Oak Ridge Reservation is managed by the Oak Ridge Operations
OBJECTIVE          Office (Operations Office) and currently has three major management
                   contractors: Lockheed Martin Energy Systems, Inc. at the Y-12 Plant;
                   University of Tennessee-Battelle, LLC at the Oak Ridge National
                   Laboratory; and Bechtel Jacobs at the East Tennessee Technology Park.
                   All three of these contractors generate low-level1 and low-level mixed2
                   waste at their respective facilities and are responsible for the accurate
                   characterization of the waste they generate.

                   Waste characterization is a series of steps performed to determine the
                   weight, volume, and physical characteristics of radioactive waste. The
                   Department uses data obtained from waste characterization to evaluate
                   treatment and disposal options for the waste. The characterization
                   process begins when the contractor that generates the waste performs an
                   initial characterization to identify basic waste information such as gross
                   weight, physical description, and estimated radiological and chemical
                   characteristics. The generator enters this information into a waste
                   inventory system, where the net weight and volume of the waste can be
                   calculated. The Department's contractors use the inventory records to
                   assign waste with similar physical and chemical characteristics to a
                   waste population. The waste population undergoes a final
                   characterization that usually requires sampling. The amount of
                   sampling is dependent on the amount and quality of information
                   provided by the generator and the waste acceptance criteria of the
                   proposed treatment or disposal facility. The final results are used as
                   defensible support for the treatment or disposal action.

                   In December 1997, the Operations Office awarded a performance-based
                   contract to Bechtel Jacobs for the management and integration of
                   environmental programs at the Oak Ridge Reservation. Bechtel Jacobs
                   is responsible for characterizing and disposing the legacy waste that
                   was generated by previous contractors and stored on the Oak Ridge
                   Reservation in addition to the waste generated by Bechtel Jacobs
                   operations. Also, Bechtel Jacobs is responsible for maintaining and
                   operating the Oak Ridge Reservation's Waste Information Management
                   System. The inventory records in this system contain characterization



                   1
                     Low-level waste has a wide range of characteristics, but most of it contains a small
                   amount of radioactivity in large volumes of material.
                   2
                     Low-level mixed waste is low-level radioactive waste that contains a hazardous
                   component. Throughout this report, low-level mixed waste will be referred to as
                   mixed waste.


Page 1                                                                 Introduction and Objective
                  data, which provides the basis for reports to the Department and
                  regulatory agencies, such as the Tennessee Department of Environment
                  and Conservation. During our audit, Bechtel Jacobs implemented a
                  Waste Certification Program that established requirements for generators
                  to characterize waste properly before it is accepted for storage or
                  disposal. As of September 1999, about 84 percent of the mixed and low-
                  level waste in the inventory reporting system was generated before
                  Bechtel Jacobs assumed responsibility at Oak Ridge.

                  The Office of Inspector General (OIG) recently issued three reports
                  related to waste characterization. Report DOE/IG-0434, Waste
                  Inventory Data at Oak Ridge and Savannah River (December 1998),
                  concluded that the volume of waste stored at the Oak Ridge Reservation
                  was overstated in FY 1998 inventory records, and the locations of many
                  waste containers at the Savannah River Site were recorded inaccurately
                  or incompletely. As a result, the Department could not rely on the waste
                  inventory data at the Oak Ridge Reservation to make informed decisions
                  regarding the amount of waste to be treated or disposed. Report DOE/
                  IG-0451, Waste Incineration at the Oak Ridge Reservation (August
                  1999), concluded that current incineration operations were limited
                  because the majority of on-site waste was not sufficiently characterized
                  for the development of an effective burn plan. Also, DOE/IG-0454,
                  Waste Incineration at the Idaho National Engineering and
                  Environmental Laboratory (December 1999), concluded that current
                  operations were limited because the majority of on-site waste was not
                  sorted, segregated, and characterized for incineration.

                  The objective of this audit was to determine whether Bechtel Jacobs and
                  its predecessor contractors at Oak Ridge accurately characterized the
                  Department’s waste.

CONCLUSIONS AND   Bechtel Jacobs and its predecessor contractors at Oak Ridge did not
OBSERVATIONS      accurately characterize the Department’s waste. Specifically, the
                  contractors misstated the weight, volume, and physical descriptions of
                  the waste in inventory. These conditions occurred because the
                  Department and its contractors did not develop procedures for
                  determining accurate weights, volumes, and physical descriptions of
                  containerized waste. As a result, the Department could not rely on waste
                  characterization data to make informed decisions regarding the amount




Page 2                                                  Conclusions and Observations
         of mixed and low-level waste to be treated or disposed. Also, the
         Department will incur about $480,000 in FY 2000 to visually inspect
         6,500 containers that were previously characterized at Oak Ridge.

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                                       (Signed)

                                              Office of Inspector General




Page 3                                         Conclusions and Observations
INACCURATE CHARACTERIZATIONS


Weights, Volumes,     Oak Ridge contractors did not accurately determine the weight, volume,
and Physical          and physical description of mixed and low-level waste. Specifically,
Descriptions Were     the contractors (1) overstated the weight, (2) understated the volume,
Inaccurate            and (3) provided inaccurate physical descriptions of the waste in
                      inventory.

                                              Weight Was Overstated

                      The inventory of mixed waste was overstated by at least 1.1 million
                      pounds because contractor employees included the weight of storage
                      containers in their weight calculations. Also, the inventory of low-level
                      waste was overstated by at least 1.2 million pounds because employees
                      did not update inventory records when containers were emptied.

                      Department policy requires that container weight be excluded from
                      mixed waste inventories unless the waste will remain containerized at
                      its final disposition. When mixed wastes are removed from containers
                      before treatment or disposal, container weight should be excluded from
                      mixed waste inventories. Despite the Department’s policy, Bechtel
                      Jacobs and its predecessor contractors included the weight of containers
                      that were to be emptied prior to treatment or disposal when reporting
                      mixed waste inventories. Bechtel Jacobs could not determine the
                      weight of the waste in most containers because it could not determine
                      the weight of the container in which the waste was stored. In fact,
                      contractor employees knew the container weight for only 12,735 of
                      28,028 mixed waste containers included in the September 1999
                      inventory. The combined weight of the 12,735 containers was
                      approximately 1.1 million pounds.

                      Bechtel Jacobs also overstated the inventory of low-level waste because
                      employees did not update inventory records when containers were
                      emptied. Containers that previously held mixed or low-level waste
                      were classified as low-level waste when emptied. The containers
                      should have been added to the low-level inventory at their actual
                      weights. However, the weights were often reported as though the
                      container still held the waste. For example, an empty container
                      weighing about 62 pounds was reported to weigh 5,981 pounds. We
                      reviewed characterization records for 7,356 empty containers that
                      previously contained waste to determine whether the reported weights
                      were reasonable. We determined that 3,029 containers were reported to
                      weigh 1.2 million pounds more than the combined weight of the empty
                      containers.



Page 4                                                                     Details of Finding
                              Volume Was Understated

         In addition to weight, contractors also miscalculated the volume of
         waste in the Oak Ridge inventory. Contractor employees overstated
         the volume of mixed waste by 1,854 cubic meters and understated
         the volume of low-level waste by 3,600 cubic meters in the March
         1999 inventory reports. Thus, the contractors understated the overall
         volume of mixed and low-level waste by 1,746 cubic meters.

         Bechtel Jacobs overstated the volume of mixed waste in the March
         1999 inventory by 1,854 cubic meters. Employees calculated the
         volume of mixed waste by dividing the weight of the waste by a
         conversion factor, representing the density of the waste. However,
         the conversion factors were inaccurate about 48 percent of the time.
         We considered the conversion factor inaccurate if the calculated
         volume exceeded the maximum volume of the container. To
         illustrate, when the conversion factor was used to determine the
         volume of waste in a 55-gallon drum, the calculated volume was
         132 gallons. We determined that the calculated volume exceeded the
         maximum volume of the container for 13,317 out of 28,028 mixed
         waste containers.

         We discussed the overstatement of mixed waste volumes with
         Bechtel Jacobs during the audit, and recommended that management
         limit the volume reported to the maximum volume of the container.
         Bechtel Jacobs agreed with the recommendation and made
         appropriate adjustments for the September 1999 inventory.
         Although the total volume of waste might still be overstated due to
         conversion factor inaccuracies, the adjustments made by Bechtel
         Jacobs reduced the amount of the overstatement.

         While it overstated the volume of mixed waste, Bechtel Jacobs
         understated the volume of low-level waste. Specifically, 24,179
         low-level waste containers had inaccurate container volumes,
         resulting in a net understatement of 3,600 cubic meters. In most
         cases, the reported container volume was less than the actual
         container volume. For example, the report showed a container had a
         volume of 5 gallons, when in fact, it was a 55-gallon drum. Waste
         management personnel stated that the incorrect volumes were due to
         system conversion errors. Bechtel Jacobs changed the system
         conversion process to correct the container volume errors identified
         during the audit.




Page 5                                                     Details of Finding
                                          Physical Descriptions Were Inaccurate

                           In addition to the errors made by Bechtel Jacobs when determining
                           weights and volumes, other contractors provided inaccurate physical
                           descriptions of waste when performing initial characterizations. In
                           FY 1999, Bechtel Jacobs visually inspected the waste in 1,180
                           containers and determined that the physical descriptions of the waste
                           were inaccurate for 452 of the containers. For example, a waste
                           population of 75 containers was reported to contain carbon.
                           However, visual inspections revealed that only 1 container held
                           carbon and the remaining 74 containers held trash and personal
                           protective equipment. Based on an estimated 30-percent error rate in
                           waste descriptions, Bechtel Jacobs issued a work release for the
                           visual inspection of 6,500 additional containers of waste.

Departmental Order         Departmental Order 435.1 and its predecessor, Order 5820.2A,
Requires Accurate          require that waste be characterized with sufficient accuracy to permit
Characterization           proper segregation, treatment, storage, and disposal. The orders state
                           that waste characterization data will include an accurate record of the
                           weight, volume, and physical characteristics of the waste. The
                           Department created this requirement to establish the minimum data
                           necessary for safe and effective management during the life cycle of
                           the waste.

Procedures Were Not        The Department and its contractors did not develop procedures for
Developed to Ensure        determining accurate weights, volumes, and physical descriptions of
Accuracy                   wastes at the Oak Ridge sites. Specifically, procedures were not
                           developed to (1) determine the actual weight of mixed waste,
                           (2) update the weight of waste when containers were emptied,
                           (3) develop volume conversion factors based on accurate data, and
                           (4) accurately describe waste during initial characterization. The
                           Department and its contractors were not aware of the magnitude of
                           the errors being made.

Characterization Data      The Department could not rely on the Operations Office’s waste
Could Not Be Relied Upon   characterization data to make informed decisions regarding the
and Avoidable Costs Were   amount of mixed and low-level waste to be treated or disposed of,
Incurred                   and avoidable costs were incurred. Accurate weights, volumes, and
                           descriptions are needed for the Department to make appropriate
                           decisions regarding how to treat and dispose of mixed and low-level
                           waste, and to evaluate proposed costs and prices for the treatment
                           and disposal of waste under commercial contracts. However, errors
                           made at the Oak Ridge Reservation have limited the Department’s


Page 6                                                                        Details of Finding
                      ability to make appropriate decisions. Also, the Department incurred
                      about $99,000 in avoidable costs when Bechtel Jacobs had to
                      visually inspect the waste in 1,180 containers to determine their
                      actual contents in FY 1999. Additionally, the Department plans to
                      spend $480,000 in FY 2000 to visually inspect another 6,500
                      containers to ensure their contents are accurately characterized.

RECOMMENDATION        We recommend that the Manager, Oak Ridge Operations Office
                      direct Bechtel Jacobs to develop procedures for determining accurate
                      weights, volumes, and physical descriptions of mixed and low-level
                      waste.

MANAGEMENT REACTION   Management agreed with the finding and recommendation.
                      Management stated that Bechtel Jacobs recently implemented
                      procedures that require waste generators to properly characterize
                      waste for the targeted disposal facilities as the waste is being
                      packaged. Waste profiles have been developed for all of the major
                      waste streams that are being generated, and packaging requirements
                      and characterization information are specified to be met prior to
                      Bechtel Jacobs' acceptance of the waste from the generators. These
                      procedures, if properly implemented, should correct the deficiencies
                      for all newly generated waste. However, for legacy waste, further
                      work will need to take place to properly characterize waste for
                      disposal. The Operations Office will continue to monitor the
                      contractors' activities to ensure that the procedures are implemented.

AUDITOR COMMENTS      We considered management's comments to be responsive to the
                      recommendation. Although management did not provide an action
                      plan with estimated dates of completion, Bechtel Jacobs has
                      developed a waste verification program to independently confirm the
                      accuracy of the waste characterization data submitted by a generator.




Page 7                                                Recommendation and Comments
Appendix

SCOPE         The audit was performed from August 19, 1999, to May 8, 2000, at the
              Oak Ridge Reservation in Oak Ridge, Tennessee. The audit scope was
              limited to tests of inventory data used to track and report containers of
              mixed and low-level waste in FY 1999. The table below identifies the
              number of waste containers, weight, and volume of mixed and low-
              level waste in inventory as of September 30, 1999. Mixed waste
              containers with polychlorinated biphenyls (PCB) were not included in
              our analysis.

                                        Number of         Weight          Volume
                                        Containers       (Pounds)      (Cubic Meters)

              Mixed Waste                  28,028       53,831,637         25,271
              Low-Level Waste              30,488       58,589,761         50,100


                   Totals                  58,516      112,421,398         75,371

METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed Department requirements for waste characterization;

              •   Reviewed contractor methods for determining basic characterization
                  data for mixed and low-level waste at Oak Ridge;

              •   Analyzed the September 30, 1999 Mixed Waste Inventory
                  Reporting System records to determine whether reported waste
                  weights and volumes were determined correctly; and

              •   Held discussions with Operations Office and contractor personnel
                  regarding waste characterization.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Department and contractor policies and
              procedures. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit.




Page 8                                                      Scope and Methodology
         As part of our review, we evaluated the Department's expectations and
         performance measures for waste characterization at Oak Ridge. We did
         not identify any instances where the Department was in noncompliance
         with the Government Performance and Results Act of 1993.

         In completing the audit, we tested the accuracy and reliability of
         computer-processed waste inventory data at Oak Ridge. As discussed
         in the body of the report, we concluded that the data was not accurate or
         reliable.

         Management waived the exit conference.




Page 9                                                Scope and Methodology
                                                                                IG Report No. : ER-B-00-03

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
